HHS/OIG, Audit - "Review of Organ Acquisition Costs Claimed by Certified
Transplant Centers," (A-09-05-000034)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Organ Acquisition Costs Claimed by
Certified Transplant Centers," (A-09-05-000034)
September 28, 2006
Complete Text of Report is available in PDF format (566 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report consolidates the results of our audits of 11 centers. The objective of our audits was to determine whether the 11 centers claimed allowable organ acquisition costs on their Medicare cost reports. The 11 centers did not always comply with Medicare regulations and guidelines for claiming organ acquisition costs. Of the almost $80 million of costs audited, approximately $33 million complied with Medicare requirements for claiming, allocating, and documenting organ acquisition costs. However, almost $47 million did not comply with Medicare’s definition of organ acquisition costs, exceeded Medicare’s limits on physician salaries, or was not allocated or documented properly. Based on the fiscal intermediaries’ revisions to the 11 centers’ cost reports for unallowable and unsupported costs, we estimate that Medicare’s share of the $47 million is approximately $28 million.
We recommended that CMS consider the results of our 11 audits in prioritizing areas to be evaluated in annual audits by the fiscal intermediaries. CMS agreed with our recommendation.